August 11, 2020

STATE OF MINNESOTA

©mOEGF

Appellate Counts

IN SUPREME COURT
A19-1463
Steven Lynn Oppel,
Petitioner,
vs.
State of Minnesota,
Respondent.

ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the petition of Steven Lynn Oppel for further review
be, and the same is, denied.
Dated: August 11,2020

BY THE COURT:

Lorie S. Gildea
Chief Justice

APPENDIX B

STATE OF MINNESOTA
March 24, 2020

IN COURT OF APPEALS

Office of
Appqiafe Courts

A19-1463
Steven Lynn Oppel, petitioner,
Appellant,
vs.

ORDER OPINION
St. Louis County District Court
File No. 69DU-CR-10-554

State of Minnesota,
Respondent.
Considered and decided by Ross, Presiding Judge; Cochran, Judge; and Segal,
Judge.

BASED ON THE FILE, RECORD, AND PROCEEDINGS, AND BECAUSE:
1.

A jury found Steven Oppel guilty in 2011 of first- and second-degree

criminal sexual conduct. We affirmed his convictions on appeal. State v. Oppel, No.
A12-0875, 2013 WL 2923222, at *9 (Minn. App. June 17, 2013),. review denied (Minn.
Sept. 17, 2013). Oppel petitioned in 2016 for postconviction relief. The district court
denied the petition without an evidentiary hearing, and we affirmed. Oppel v. State,
No. A16-1035, 2017 WL 393925, at *7 (Minn. App. Jan. 30, 2017), review denied
(Minn. May 16, 2017).
2.

Oppel again petitioned for postconviction relief in March 2019. He argued

that the district court denied him his right to a public defender, that the district court
dismissed a juror without good reason, that other witnesses could have testified to

• f'
contradict the victim’s testimony, that the prosecutor committed misconduct, and that the
district court improperly admitted a video of the victim with a social worker. The district
court summarily denied Oppel’s petition on the basis that all the issues raised had been
previously litigated. Oppel appeals again.
3.

We review a district court’s denial of a postconviction petition for an abuse

of discretion. Matakis v. State, 862 N.W.2d 33, 36 (Minn. 2015). The district court need
not conduct an evidentiary hearing if the petition and record conclusively show that the
petitioner is not entitled to the relief requested. Minn. Stat. § 590.04, subd. 1 (2018);
Colbert v. State, 870 N.W.2d 616, 622 (Minn. 2015). And the district court may
summarily deny a petitioner’s successive petition when the issues have already been
decided by the court of appeals. Minn. Stat. § 590.04, subd. 3 (2018).
4.

We need not consider any alleged error in the district court’s basis for

denying Oppel’s petition, because the petition was not timely filed. See Dukes v. State,
718N.W.2d 920, 921-22 (Minn. 2006) (“[W]e can affirm the denial of postconviction
relief on grounds other than those on which the postconviction court reiied.”). A
postconviction petition may not be filed “more than two years after the later of: (1) the
entry of judgment of conviction or sentence if no direct appeal is filed; or (2) an appellate
court’s disposition of petitioner’s direct appeal.” Minn. Stat. § 590.01, subd. 4(a) (2018).
The two-year limitations period began to run when the United States Supreme Court
denied certiorari in Oppel’s direct appeal. Oppel y. Minnesota, 134 S. Ct. 1518 (Mar. 10,
2014) (mem.). The limitations period therefore expired on March 10, 2016, three years
before Oppel filed his second postconviction petition.
2

5.

Several exceptions allow the district court to consider a time-barred

petition. See Minn. Stat. § 590.01, subd. 4(b). Oppel appears to argue for the
interests-of-justice exception. Id., subd. 4(b)(5). This exception requires the petitioner to
identify an injustice that caused him to delay filing the petition within the two-year
period. Nissalke v. State, 920 N.W.2d 187, 194 (Minn. 2018). But OppePs argument does
not identify any injustice that delayed his petition.
IT IS HEREBY ORDERED:
1.

The district court’s order is affirmed.

2.

Pursuant to Minn. R. Civ. App. P. 136.01, subd. 1(b), this order opinion

will not be published and shall not be cited as precedent except as law of the case,
res judicata, or collateral estoppel.
Dated: March 24, 2020

BY THE

3

